Supreme Court, U.S.
FILED

20-8432

JAN 2 8 2021

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

ROBERT GARZA

— PETITIONER

(Your Name)
vs.
DONALD KLETNE: DOUG PETERSON

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. COURT OF APPEALS FOR THE EIGHTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ROBERT GARZA

(Your Name)
P.O. BOX 900

k

f-

(Address)

B 'h
TECUMSEH/ NE 68450

(City, State, Zip Code)
(4D?) 335-5998

(Phone Number)

RECEIVED
FEB - 9 2021
3UPRE»«Eoo5n!~ulaK

QUESTION(S) PRESENTED

1.

Does a judge exceed his legal authority by making factual findings

by a preponderance of the evidence which expose a defendant to the elevated
upper term sentence ?
2.

Does a violation of the six month speedy trial constitute a viol-

ation of the Sixth Amendment under the U.S. Constitution ?

(i)

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

(ii)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A

Opinion of the U.S. Court of Appeal

APPENDIX B

Opinion of the United States District Court

APPENDIX C

Nebraska vs. Robert L. Garza Judgement and Sentence

APPENDIX D

Affidavit J. William Gallup

APPENDIX E

Nebraska vs. Robert L. Garza State Complaint

APPENDIX F

(iii)

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

U.S. v. Augur/ 96 S.Ct. 2392 (1976)
Cunningham v. California/ 127 S.Ct. 856 (2007)

5

Hurst v. Florida/ 136 S-Ct. 616 (2016)
Montgomaery v. Louisiana/ 136 S.Ct. 718 (2016)

6

Imbler v. Pactman, 414 U.S. 409 (1976)
Napue v. People of the State of Ill ♦ V 360 U.S. 264 (1959)
Blakely v. Washington/ 124 S.Ct. 2531~"(2004)

3
3/7
4
9
6

STATUTES AND RULES
Neb. Rev. Stat. §28-313

5/7/9

28 U-S.C. §1254(1)

2

28 U-S.C. §1257(a)

2

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

{x ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
lx] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
p] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
. court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

___to

to

JURISDICTION

k ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[xj A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: Mnvwnhpr in.
, and a copy of the
order denying rehearing appears at Appendix
A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
-------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The constitutional right to trial by jury as illustrated in the various
U.S. Supreme Court decisions/ particularly Cunningham v. California/ 127 S.Ct.
856 (2007)/ Montgomery v. Louisiana/ 136 S.Ct. 718 (2016).

3

\-

STATEMENT OF THE CASE

On March 17, 1983, Garza was arrested for Kidnapping, At­
tempted Murder in the Second Degree, and Use of a Firearm to
Commit a Felony, by the Omaha Police Division.
_The case proceeded to trial on all three counts in the
Douglas County District Court.
While the jury was deliberating, trial counsel received
a sworn affidavit from the victim recanting her initial story
given to police, that Garza used force by placing her head down
in between his legs and caused her serious bodily injury.
Instead of counsel bringing that matter to the attention
of the Court, he waited until after trial

and brought it up in

a Motion For New Trial. The trial court ruled that it was
brought up too late, and that he failed to bring forward the
victim, and the affidavit was hearsay.
It is very important to note that the prosecutor was aware
of the affidavit and failed to take corrective measures by in­
forming the appropriate authorities of after-acquired or other
information that cast doubt on the correctness of the conviction.
Imbler v. Pactman 9 424 U.S. 409 (1976).
The U.S. Supreme Court has consistently held in its deci-

4

V

sion in U.S. v. Augur, 96 S. Ct. 2392 (1976), that a conviction
obtained by the knowing use of perjured testimony is fundamen­
tally unfair and must be set aside if there is any reasonable
likelihood that the false testimony could have affected the
judgment of the jury.
There is no doubt that the perjured testimony affected
the judgment of the jury, because the victim was the only wit­
ness to the crime, and she had already perjured herself during
trial, and had a change of heart and gave counsel the affidavit
while the jury was deliberating.
The jury returned a verdict of guilty on all three counts.
However, the Kidnapping offense carries a prison term of either
1 to 50 years or life, depending on whether the victim was re­
leased in a safe place without having suffered serious bodily
injury.
Attached hereto is a copy of the JUDGMENT AND SENTENCE
which clearly illustrates that the Judge alone made the factual
finding that Garza did not voluntarily release the victim in a
safe place without suffering serious bodily injury.
That is a determination that must be made by the jury be­
yond a reasonable doubt, not the Judge by a preponderance of the
evidence.
It is important to note that,the.Nebraska Legislature al-_
lows tire Judge; under " Neb'; Rev r^Sta't".

5

r23-"3lL3 “bo fdmd’~~fxrc.'t’S etet

it relates to whether he can impose a Class XI or life sentence
in prison.
Attached hereto also is a copy of the jury verdict which
clearly shows that the jury found Garza guilty of Kidnapping.
The verdict does not illustrate whether the victim was volunta­
rily released.
A sentencing scheme that allows a judge, not a jury, to
find facts that increase a sentence beyond the statutory ipaximum
by a preponderance of the evidence is unconstitutional. Hurst
v. Florida, 136 S. Ct. 616 (2016).
The "statutory Maximum" for Apprendi purposes is the maxi­
mum sentence a judge may impose solely on the basis of the facts
reflected in the jury verdict or admitted by the defendant, not
the maximum sentence a judge may impose after finding additional
facts. Blakely v. Washington, 124 S. Ct. 2531 (2004).
The maximum sentence Garza could be sentenced to was 1 to
50 years imprisonment, because that was what was reflected in the
jury verdict for the offense of Kidnapping.
The trial court exceeded its authority by finding that
Garza did not voluntarily release the victim, which was a fact
that increased the sentence from 1 to 50 years to life in pri­
son, and should have been found by the jury beyond a reasonable
doubt.
And

"Garza dxd nxrt adiuit to any aggravating circumstauces

6

Additionally, 28-313 is facially unconstitutional, be­
cause there are no circumstances by which the statute can be
constitutional.
The statute allows Judges in Nebraska to exceed their le­
gal authority by finding facts that increase a sentence by a preponderance of the evidence,

which violates the Separation of

Powers Doctrine, the Due Process Clause, and the Sixth Amend­
ment to the U.S. Constitution.
The U.S. Supreme Court held in its decision in Montgomery
v. Louisiana,that a conviction or sentence obtained under an
unconstitutional statute is not only erroneous, but void, and
cannot be a cause of imprisonment.
The trial court record shows that on august 22% 1983, trial
counsel, William Gallup, appeared before the District Court of
Douglas County, Nebraska and waived Garza's right to a speedy
trial, in Garza's absence and without his permission.
According to the transcript of the trial, Gallup informed
the Court that it was necessary for him to waive the speedy
trial to give Garza adequate time to prepare an insanity defense.
On October 17, 1983, Garza appeared in Court with Gallup
to ratify the waiver of the speedy trial.
However, the ratification occurred after the speedy trial
clpi^_had^xan..-iJ:js„i2mr.s_e_,_The._r.e£^Jid-shaws_;.;that_ithe^nf;orma;tion^™

7

was filed on April 8, 1983. The ratification occurred nine (9)
days after the speedy trial clock ran

8

REASONS FOR GRANTING THE PETITION

The Nebraska Supreme Court, the U.S. District Court

and

the U.S. Court of Appeals for the Eighth Circuit has refused
to acknowledge that defendants in Nebraska has been convicted
and sentenced in direct contradiction of the several decisions
rendered by this Court, as it relates to allowing Judges to
find facts by a preponderance of the evidence that increase a
sentence beyond the statutory maximum.
—— Additional! y

t

the—same-Court-s-have-ref u3cd-~ti3—ati-dreT3-o-i:hc

facial unconstitutionality of Neb. Rev. Stat. § 28-313, the
Kidnapping statute in Nebraska.
As currently written, the Legislature still allows Judges
to determine by a preponderance of the evidence whether a defen­
dant can be exposed to the elevated upper term sentence. Nebraska
regards these factors as sentencing factors, rather than elements
of the offense which must be sent to the jury and proven be.*=
yond a reasonable doubt.
Conviction obtained through use of false testimony, known
to be such by representatives of the State is a denial of due
process, and there is also a denial of due process, when the
State, though not soliciting false evidence, allows it to go un­
corrected cwhen it appears. Napue v. People of the State of Ill.,
360 U.S. 264 (1959).

9

Attached hereto is a copy of the Affidavit provided to
counsel during the trial, which illustrates that the victim re­
canted her original report given to police. She had already
perjured herself during the trial, but had a change of heart
and decided to tell the truth.
The State became aware of the Affidavit while the jury was
deliberating, and refused to take corrective measures.
To reiterate, the victim was the only witness to the alleged
crime

and was the State's star witness. Had the jury known of

the Affidavit, they would have rendered a totally different ver­
dict .
It is also noteworthy to mention, the State in 1998, on
its own motion asked the trial court to dismiss the attempted
second degree murder conviction, which it did.
Had the trial court at least sentenced Garza to the Class
II offense of Kidnapping, the most he could have received was
50 years, which would have put his discharge date at March 17,
2008.
Garza in in custody in violation of the Sixth and Four­
teenth Amendments to the U.S. Constitution, because he should
have been released from the three charges referenced herein
when the State violated his right to a speedy trial.

10

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

lc-ioi /

ll

